<html>
<title> - COURT SECURITY IMPROVEMENT ACT OF 2007</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



                 COURT SECURITY IMPROVEMENT ACT OF 2007

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   ON

                                H.R. 660

                               __________

                              MAY 3, 2007

                               __________

                           Serial No. 110-108

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov

                                 ------

                     U.S. GOVERNMENT PRINTING OFFICE

35-116 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001






                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. ``BOBBY'' SCOTT, Virginia  HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
MARTIN T. MEEHAN, Massachusetts      CHRIS CANNON, Utah
WILLIAM D. DELAHUNT, Massachusetts   RIC KELLER, Florida
ROBERT WEXLER, Florida               DARRELL ISSA, California
LINDA T. SANCHEZ, California         MIKE PENCE, Indiana
STEVE COHEN, Tennessee               J. RANDY FORBES, Virginia
HANK JOHNSON, Georgia                STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
                 Joseph Gibson, Minority Chief Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

MAXINE WATERS, California            J. RANDY FORBES, Virginia
WILLIAM D. DELAHUNT, Massachusetts   LOUIE GOHMERT, Texas
JERROLD NADLER, New York             F. JAMES SENSENBRENNER, Jr., 
HANK JOHNSON, Georgia                Wisconsin
ANTHONY D. WEINER, New York          HOWARD COBLE, North Carolina
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MARTIN T. MEEHAN, Massachusetts      DANIEL E. LUNGREN, California
ARTUR DAVIS, Alabama
TAMMY BALDWIN, Wisconsin

                      Bobby Vassar, Chief Counsel
                    Michael Volkov, Minority Counsel
























                            C O N T E N T S

                              ----------                              

                              MAY 3, 2007

                                                                   Page

                                THE BILL

H.R. 660, the ``Court Security Improvement Act of 2007''.........     3

                           OPENING STATEMENT

The Honorable Robert C. ``Bobby'' Scott, a Representative in 
  Congress from the State of Virginia, and Chairman, Subcommittee 
  on Crime, Terrorism, and Homeland Security.....................     1
The Honorable J. Randy Forbes, a Representative in Congress from 
  the State of Virginia, and Ranking Member, Subcommittee on 
  Crime, Terrorism, and Homeland Security........................    23

                               WITNESSES

The Honorable Robert M. Bell, Chief Judge, Maryland Court of 
  Appeals
  Oral Testimony.................................................    25
  Prepared Statement.............................................    27
The Honorable John F. Clark, Director, United States Marshals 
  Service, United States Department of Justice, Washington, DC
  Oral Testimony.................................................    35
  Prepared Statement.............................................    36
The Honorable David Bryan Sentelle, Chair, Judicial Conference 
  Committee on Judicial Security, Washington, DC
  Oral Testimony.................................................    41
  Prepared Statement.............................................    43

                                APPENDIX

Material Submitted for the Hearing Record........................    59






























 
                    COURT SECURITY IMPROVEMENT ACT 
                                OF 2007

                              ----------                              


                         THURSDAY, MAY 3, 2007

              House of Representatives,    
              Subcommittee on Crime, Terrorism,    
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 10:02 a.m., in 
Room 2237, Rayburn House Office Building, the Honorable Robert 
C. ``Bobby'' Scott (Chairman of the Subcommittee) presiding.
    Present: Representatives Scott, Forbes, Coble, and Lungren.
    Staff present: Bobby Vassar, Subcommittee Chief Counsel; 
Gregory Barnes, Majority Counsel; Caroline Lynch, Minority 
Counsel; and Veronica L. Eligan, Professional Staff Member.
    Mr. Scott. The Subcommittee will now come to order.
    I am pleased to welcome you today to the hearing before the 
Subcommittee on Crime, Terrorism, and Homeland Security on H.R. 
660, the ``Court Security Improvement Act of 2007.''
    This is a bill that was introduced by Chairman Conyers, 
Representative Gohmert from Texas, and myself back in January 
of this year. The legislation is identical to a court security 
bill that was introduced in the Senate and recently passed by 
that body by unanimous vote.
    The importance of judicial security has been underscored by 
recent murders: the family members of a Chicago Federal judge 
in 2005, and the killings less than 2 weeks later of a State 
court judge, a court reporter, and a sheriff's deputy in an 
Atlanta courthouse.
    Surprisingly, these acts of violence also make their way to 
our Nation's highest court, whereby Supreme Court justices as 
of late have also been the intended targets of violence, 
threats and other forms of intimidation.
    For example, in March of last year, the public learned 
about death threats made against Supreme Court justices back in 
2005. More than a few months ago it was revealed that home-
baked cookies infused with rat poison had been mailed to all 
nine justices in 2005. And, according to media reports, Justice 
Sandra Day O'Connor was quoted as saying, ``Each one contained 
enough poison to kill the entire membership of the Court.''
    These acts of violence, along with numerous others, led to 
the introduction of H.R. 660, which, among other things, seeks 
to improve judicial security for court officers and safeguards 
judges and their families at home. The legislation achieves 
these objectives by making several noteworthy changes in 
existing law.
    For example, it calls for an increase in consultation 
between the U.S. Marshals Service and the Judicial Conference 
of the United States to ensure that the Conference's views on 
security requirements for the judicial branch are taken into 
account when determining staffing levels, setting priorities 
for security programs, and allocating judicial security 
resources.
    In addition, to guaranteeing that the Marshals Service will 
have adequate resources to carry out their newfound 
responsibilities, the legislation authorizes an additional $20 
million per year over the course of the next 5 years for the 
purpose of hiring new marshals to investigate threats and to 
provide protective details to judges and assistant U.S. 
attorneys.
    The measure authorizes $100 million in grants to States and 
local government to expand and create witness protection 
programs that will have as their primary focus preventing 
threats, intimidation and retaliation against witnesses of 
victims of violent crimes.
    In closing, I look forward to the testimony of our 
witnesses on the aforementioned set of issues, as well as their 
thoughts or concerns that may relate to any other topic that 
may fall within the scope of this bill.
    With that said, it is now my pleasure to recognize my 
colleague from Virginia, the Honorable Randy Forbes, who 
represents Virginia's 4th Congressional District, for his 
comments.
    [The bill, H.R. 660, follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    
    Mr. Forbes. Thank you, Chairman Scott.
    And thank all the witnesses for being here. We look forward 
to your testimony today.
    I appreciate your holding this legislative hearing, Mr. 
Chairman, on H.R. 660, the ``Court Security Improvement Act of 
2007.''
    In the last few years, we have seen unprecedented levels of 
violence involving judges, prosecutors, defense counsel, law 
enforcement officers and courthouse employees who play a 
critical role in our judicial system.
    The killing of family members of United States District 
Judge Joan Lefkow and the brutal slayings of Judge Roland 
Barton, his court reporter, a deputy sheriff and a Federal 
officer in Atlanta, and the cold-blooded shootings outside the 
Tyler, Texas, courthouse all underscore the importance of 
protecting judges, courthouse personnel, witnesses, law 
enforcement and their family members.
    This is a problem that is threatening the very integrity of 
our judicial system. According to the Administrative Office of 
the United States Courts, there are almost 700 threats a year 
made against Federal judges. And in numerous cases, Federal 
judges have had security details assigned to them for fear of 
attack by members of terrorist associates, violent gangs, drug 
organizations, and disgruntled litigants.
    Federal prosecutors and defense counsel face similar 
threats and challenges. The problem of witness intimidation and 
threats has continued to grow, particularly at the State and 
local level, where few, if any, resources are available to 
protect witnesses, victims and their families.
    The bill before the Subcommittee includes some of the 
judicial security provisions which were passed last Congress as 
part of H.R. 1751, the ``Secure Access to Justice and 
Courthouse Protection Act,'' which passed the House 375 to 45, 
and H.R. 4472, the ``Child Safety and Violent Crime Reduction 
Act,'' which passed by a voice vote. Unfortunately, the Senate 
did not enact H.R. 1751, despite the strong pressure to do so.
    While I support H.R. 660 because it includes provisions we 
already passed, I am concerned that the bill omits protection 
of a key player in the judicial system: our Nation's law 
enforcement officers.
    According to the Bureau of Justice Statistics, 55 law 
enforcement officers were feloniously killed in the United 
States in 2005. The previous year, 57 officers were killed in 
the United States. In the 10-year period from 1996 to 2005, a 
total of 575 law enforcement officers were feloniously killed 
in the line of duty in the United States, 102 of whom were 
killed in ambush situations, in entrapment or premeditated 
situations. If not for the advent of bulletproof vests, an 
additional 400 officers would have been killed over the last 
decade.
    More than 57,000 law enforcement officers were assaulted in 
2005, or one in every 10 officers serving in the United States. 
And the numbers have been increasing since 1999, even as other 
crime has decreased or held steady.
    As the executive director of the Fraternal Order of Police 
noted, ``There is less respect for authority in general and 
police officers specifically.'' The predisposition of criminals 
to use firearms is probably at the highest point in our 
history.
    If we are going to protect judges, courthouse personnel and 
witnesses, we need to protect the most important witness, in 
many cases: the police officer. We can pass all the laws we 
want, but without effective law enforcement there will be no 
trial and no justice.
    H.R. 1751 included an important provision to protect the 
safety of our law enforcement officers, and these provisions, 
unfortunately, are not in this bill. I know that my colleague, 
Representative Gohmert, is working on legislation to address 
law enforcement officers' concerns, and I am hopeful that the 
Subcommittee will address these important issues.
    We must continue to work together in a bipartisan effort to 
ensure that our judicial system operates in a safe environment. 
Judges, witnesses, courthouse personnel and law enforcement 
must not have to face threats and violence when carrying out 
their duties.
    At the State and local level, there is dire need to provide 
basic security services in the courtroom and for witnesses, and 
H.R. 660 represents a good first step in that direction. But, 
in my view, there is more we can and should do to address this 
problem.
    Mr. Chairman, I look forward to today's hearing. I yield 
back.
    Mr. Scott. Thank you. Thank you, Mr. Forbes.
    We have a distinguished panel of witnesses here to help us 
consider the important issues that are currently before us.
    Our first witness will be Chief Judge Robert M. Bell. He 
began his tenure on the bench in 1975 as a District Court judge 
for the city of Baltimore, Maryland. He next served as a judge 
in a Circuit Court for Baltimore until 1984, when he was 
appointed the judge of the Court of Special Appeals in 
Maryland. In 1991 he was appointed to the Court of Appeals in 
Maryland, and 2 short years later he was elected to serve as 
Chief Judge of the Maryland Court of Appeals, the State's 
highest court.
    He is the only active judge in the State to have served at 
least 4 years at all four levels of Maryland's judiciary, and 
the first African-American to be named the State's chief 
jurist. He received his Bachelor of Arts degree from Morgan 
State Universitye and his J.D. from Harvard University Law 
School.
    Next we have John F. Clark, the current director of the 
U.S. Marshals Service. Prior to his employment as director, Mr. 
Clark served as U.S. Marshal for the Eastern District of 
Virginia, which includes Alexandria, Richmond and Norfolk, 
Virginia. Throughout his career, he held numerous senior 
management positions in the Marshals Service, including serving 
as chief of the Internal Affairs Division and chief of the 
International Fugitive Investigation Division. Before joining 
the U.S. Marshals, he was employed by the United States Capitol 
Police and the U.S. Border Patrol. He holds a Bachelor of 
Science degree from Syracuse University.
    Finally, we will have Judge David B. Sentelle. He was 
appointed to the United States Court of Appeals for the 
District of Columbia Circuit. He also serves as chairman of the 
United States Judicial Conference Committee on Judicial 
Security. Throughout his career, he has held numerous positions 
in the legal profession, including serving as an assistant U.S. 
attorney in Charlotte, North Carolina, and teaching at the law 
schools of the University of North Carolina and Florida State. 
He had the honor of serving as the presiding judge of the 
Special Division of the Court of Appointment of Independent 
Counsel. He is an honors graduate from the University of North 
Carolina Law School.
    Each witness has introduced a written statement already, 
which will be made a part of the record in its entirety, so I 
would ask that each witness summarize your testimony in 5 
minutes or less.
    To help you stay within the time, there is a timing device 
right in front of us. When 1 minute is left, the yellow switch 
will go on and, finally, to red when the 5 minutes are up.
    We will begin with Judge Bell.

          TESTIMONY OF THE HONORABLE ROBERT M. BELL, 
             CHIEF JUDGE, MARYLAND COURT OF APPEALS

    Judge Bell. Thank you, Mr. Chairman, Ranking Member Forbes 
and Members of the Committee. It is my privilege to be here 
today to provide testimony for consideration by this 
Subcommittee, and I do so on behalf of the Conference of Chief 
Justices and the Conference of State Court Administrators.
    The Conferences' membership consists of the highest 
judicial officers and State court administrators in each of the 
50 States, the District of Columbia, the Commonwealth of Puerto 
Rico, the Northern Mariana Islands and the territories of 
American Samoa, Guam and the Virgin Islands.
    The National Center for State Courts serves as the 
secretariat for the two conferences, and it provides supportive 
services to State court leaders throughout the country, 
including original research, consulting services, publications 
and national education programs.
    I am pleased that here today with me are Jose Dimas and Kay 
Farley of the National Center staff. I mention them because 
they will be providing you with any follow-up information that 
you may need, any answers to questions that I am not able to 
provide.
    Ours is a democratic republic, the foundation for which is 
the rule of law. The rule of law, of course, requires a strong 
and independent judiciary. And that, of course, depends in turn 
upon full and fair dispensation of justice, as well as the full 
and complete access to justice by the citizens. And if those 
two things are produced, it will result in the citizens having 
trust and confidence in the courts, the judiciary.
    To be sure, the Federal courts are critical actors and must 
obtain complete resources for the benefit of which they will be 
able to pursue their function. But it cannot be gainsaid that 
so, too, are the State courts. They touch huge numbers of 
people, indeed 95 or more percent of the total litigation in 
the country.
    We believe that Congress has an opportunity now to make an 
important and tangible difference in improving the safety of 
our courts and upholding the fundamentals of our democratic 
society.
    Today thousands of judges, prosecutors, public defenders, 
law enforcement officers, court personnel, court reporters, 
jurors, witnesses, victims, members of the general public, went 
into a courtroom. They came and they come for one purpose: They 
come to seek that full and fair justice, and they seek it in a 
safe and a neutral forum.
    It is critical, indeed vital, that we ensure the public's 
ability to resolve their disputes, to receive that justice, to 
present their evidence and expect judges to rule solely on the 
basis of the law, uninfluenced by outside influences or by 
intimidation. To accomplish this, we must provide a forum free 
from fears, threats and violence.
    It cannot be doubted that people will hesitate or refuse to 
bring their disputes to courts if a likely consequence is 
intimidation or physical harm. Judges and jurors, of course, 
cannot pursue the trust if they or their families are 
threatened.
    We have provided in the written statement some examples 
from our constituents, States such as Alaska, Arizona, 
California, New Mexico, Maryland, about incidences of threats 
to judges. And I urge your consideration of that.
    With those things in mind, we are urging that you consider, 
in addition to the provisions already in the bill, including 
provisions that would create a new Federal grant program 
specifically targeted to assess and enhance State court 
security, a program that would assist States to conduct 
assessments and implement court security improvements deemed 
necessary based on those assessments.
    We ask that the highest State court in each of these States 
and territories be eligible to apply for the funds. Federal 
funds are, of course, valuable seed money for State courts.
    We are also asking that you ensure that State and local 
courts are eligible to apply directly for discretionary Federal 
funding. State and local courts have not been able to apply 
directly for some Department of Justice Administrative programs 
because of the definition of unit of government. The result of 
this language is that the State and local court is not able to 
apply directly for discretionary funds but must ask an 
executive agency to submit an application on their behalf.
    As you provide oversight role to the DOJ and as grant 
programs are revisited, we ask that the definition of eligible 
entities be broadened so that State and local courts can apply 
directly for discretionary Federal grant funds.
    And, finally, we ask that you ensure that State courts are 
included in the planning for disbursement for Federal funding 
administered by State executive agencies. Statutory language 
for grant programs that impact the justice system should 
include specific language requiring consultation and 
consideration of State court needs. We have provided some 
language we would urge you to include, in the written 
testimony. And I will not repeat it here.
    State courts of this country welcome the Subcommittee's 
interest in the security of the courts. We look forward to 
working with the Subcommittee to develop legislation that 
addresses State court security needs and takes into account the 
varied needs of the State courts of this country.
    We commend the Subcommittee for holding this hearing and 
for recognizing the national interest in ensuring that our 
judiciary and courts must operate in a safe and secure 
environment.
    We thank you.
    [The prepared statement of Judge Bell follows:]
           Prepared Statement of the Honorable Robert M. Bell

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Scott. Thank you.
    Mr. Clark?

  TESTIMONY OF THE HONORABLE JOHN F. CLARK, DIRECTOR, UNITED 
 STATES MARSHALS SERVICE, UNITED STATES DEPARTMENT OF JUSTICE, 
                         WASHINGTON, DC

    Mr. Clark. Thank you, Mr. Chairman, Representative Forbes 
and Members of the Subcommittee. I am pleased to appear before 
you today to answer your questions on H.R. 660, the ``Court 
Security Improvement Act of 2007.''
    I am also pleased and honored to appear today and be seated 
between two distinguished Members of the judiciary.
    This bill, among its many provisions, authorizes needed 
additional resources for the Marshals Service to continue to 
meet our judicial security responsibilities.
    It would also allow us to enhance the services of the 
Office of Protective Intelligence, our core operational unit 
charged with analyzing and disseminating threat information so 
that all threats can be mitigated before harm comes to members 
of the judicial family.
    Resources would also go to hiring more Deputy U.S. 
Marshals, not only to investigate threats, but to provide for 
the protection so often needed for judges, prosecutors and 
their families.
    This bill also helps judges better protect themselves by 
allowing them to continue to redact personal information from 
their financial disclosure reports.
    The bill acts to defer threats by adding more Federal 
penalties for threatening court officials.
    The bill also finally closes a long-existing loophole that 
did not classify certain weapons as dangerous weapons 
prohibited inside a courthouse.
    Passage of this legislation would go a long way in helping 
the Marshals Service provide the absolute best security for our 
judicial families. And I appreciate you giving me the 
opportunity to provide whatever input I can to assist in this 
process.
    Thank you very much, and I look forward to your questions.
    [The prepared statement of Mr. Clark follows:]
           Prepared Statement of the Honorable John F. Clark

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Scott. Judge Sentelle?

    TESTIMONY OF THE HONORABLE DAVID BRYAN SENTELLE, CHAIR, 
JUDICIAL CONFERENCE COMMITTEE ON JUDICIAL SECURITY, WASHINGTON, 
                               DC

    Judge Sentelle. I, too, want to thank the chair and Ranking 
Member of the Committee and the Members of the Committee. As a 
resident of Virginia, I especially thank the Chairman and the 
Ranking Member.
    And I must say it is good to see my long-time friend--I 
shouldn't say old friend, but certainly long-time friend and 
fellow Tar Heel, Congressman Coble. We were assistant U.S. 
attorneys together 30-and-some-odd years ago.
    I am very honored to be here.
    In the last year of his life, Chief Justice Rehnquist 
became very concerned about judicial security by reason of the 
kinds of incidents to which the Chairman alluded. He created a 
new committee with the responsibility for judicial security, 
which had previously been adjunct to the Facilities Committee. 
I was honored when he made me the chair just before he passed 
away.
    During the past year and a half, or almost a year and a 
half, we have made great strides, working with and through the 
U.S. Marshals Service, in obtaining for every judge in the 
country the opportunity to have home intrusion detection 
devices. I called those burglar alarms before I got on the 
committee. [Laughter.]
    Now I have that available for every judge in the country.
    Working with and through the U.S. Marshals Service, we have 
taken the technology developed for fugitive pursuit and 
analysis and helped the Marshals Service in adapting it for use 
also in support of judicial threat investigation.
    All of this has been with the priceless support of the 
legislative branch in giving us what we need to get these 
things done. Our presence here doesn't mean we are complaining 
about anything going on in the legislative and executive 
branches. It is just that we think we can all work together to 
do more.
    For example, in 101, the Consultation Provision, our asking 
that the Marshals Service and Judiciary be required to consult 
does not mean we are not consulting now. Director Clark and I 
are on the phone or in person together, sometimes several times 
a week, sometimes for days at a time, and in remote locations 
and technical centers in other parts of the country.
    What we want to do is ensure by statute that this kind of 
relationship can be continued no matter who is the director of 
the Marshals Service or who is the chair of the Judicial 
Security, so that each branch can rely on the other in the 
future without having to hope that personal relationships hold 
up.
    Similarly, the redaction is working well now, but we do 
want to urge the Committee and the Congress to continue the 
redaction authority. That is to say, when judges file financial 
statements, we don't like the disgruntled litigant of the sort 
who has threatened or shot judges in the past to be able to 
look down on that report and see where the judge's children go 
to school or where the judge's spouse is employed.
    We do want to provide the kind of information the public 
needs in order to ask for refusal from litigation, but we do 
not want the judges to endanger themselves or their families by 
the information that is disclosed.
    And then on another front of security is the harassment to 
which judges, jurors and witnesses have been subjected in some 
parts of this country by groups that are anti-government in 
general, anti-courts in particular, who go into State courts 
and file fictitious liens against the property of judges, 
prosecutors, jurors, in order to threaten and harass, much in 
the same way that identity theft works.
    And so, we are asking for an expansion of the already-
beneficial authority that exists to punish the filer of the 
false lien, the threatener of that sort against judicial and 
other courthouse security.
    So thanking the Congress for what you have done for us 
already and thanking the Marshals Service for their continuing 
good efforts and good results in judicial security, we would 
hope for this judicial security improvement bill to be enacted 
into law.
    Thank you very much.
    [The prepared statement of Judge Sentelle follows:]
        Prepared Statement of the Honorable David Bryan Sentelle

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Scott. Thank you, Judge.
    I want to recognize the gentleman from California, Mr. 
Lungren. The gentleman from North Carolina, who has already 
been identified, is also joining us today.
    We will now begin the rounds of questions from the Members, 
5 minutes each, and I will begin.
    Judge Sentelle, you mentioned fictitious liens. I thought 
we passed legislation fixing that a couple of years ago?
    Judge Sentelle. You did. You did. And we thank you for what 
you have done.
    This expands its coverage a bit as far as other court 
personnel involved, and it enhances the penalty so that the 
persons that are involved--there is a greater incentive not to 
commit this under the bill than what has been done in the past.
    Congress has already helped us a great deal on that. We are 
asking for a refinement. As I say, we are not dissatisfied with 
anything the Congress or the executive are doing now. We just 
want to get all of us together to do things a little better.
    Mr. Scott. No problem with being dissatisfied. Everybody 
else is dissatisfied.
    Judge Sentelle. Well, for once in my life I am not all that 
dissatisfied. [Laughter.]
    Mr. Scott. You mentioned financial disclosures. We passed 
those stop-gap measures a couple of months ago.
    Judge Sentelle. Yes, and what we want to do is extend the 
time on that to make it--we would like for it to be a permanent 
authority.
    Mr. Scott. Is there anything in that little stop-gap 
measure that we left out? Did we do everything we needed to do?
    Judge Sentelle. Other than the time element, I don't recall 
anything. I would like the opportunity to take that for the 
record and consult with the administration office staff and 
give you a more detailed answer later.\1\
---------------------------------------------------------------------------
    \1\ See Appendix for information provided by the Honorable David 
Bryan Sentelle.
---------------------------------------------------------------------------
    Mr. Scott. That will be fine.
    Judge Bell, if States had more money for courtroom 
security, what would you do with it?
    Judge Bell. What we are trying to do now is to upgrade the 
security in the courthouses throughout the State. We have taken 
it upon ourselves in Maryland, for example, to start the 
process.
    But if we had the money, we could put into place some 
security measures that would ensure that we would capture all 
of the bad things that come into the courthouse, keep them out. 
We would then be able to start some programs which could 
perhaps help us in protecting witnesses and protecting others 
who would be involved in the process of the case.
    Mr. Scott. You also mentioned assessing security. I would 
assume that as you are building courthouses from time to time 
or trying to renovate them, how criminals are transferred, 
where jurors are and that kind of thing----
    Judge Bell. Those kinds of things.
    Also making sure that our buildings are up to modern 
standards. We have a lot of old courthouses in Maryland. I am 
sure that is the case all over the country. We have a lot of 
substandard buildings. They need a lot of improvement. We need 
to do improvement with an eye toward security needs of that 
particular court.
    Mr. Scott. Mr. Clark, when witnesses are threatened, does 
that come under your bailiwick?
    Mr. Clark. Yes, it does, Mr. Chairman.
    Mr. Scott. What do you do to protect witnesses? You are 
just in Federal court?
    Mr. Clark. Yes. I would address it from the Federal court 
level. And, of course, we handle and manage the Federal Witness 
Protection Program, which, of course, in a broad context is 
used in more of a prosecutorial role.
    But also, in many of our high-threat trials or high-threat 
cases, where witness intimidation may be a factor, we make 
every effort to make sure those witnesses are protected when 
they are coming to or from court or when they are in court or 
appearing in court. And so, we would very much appreciate the 
support that this bill offers to enhance anything to do with 
witness protection and prevent any intimidation.
    Mr. Scott. Thank you.
    Mr. Forbes?
    Mr. Forbes. Thank you.
    I would like to echo what the Chairman said, first of all, 
by thanking you all for what you do, Judge Bell and Judge 
Sentelle, for your work, and, Mr. Clark, for the great job that 
the marshals do. I never want to miss an opportunity to thank 
you and tell you how much we appreciate that.
    As we talked about, we have a lot of threats. They come in 
a lot of different sizes, different packages. We are concerned 
about the individuals that most of us in laymen's terms would 
just say are crazy individuals and, you know, very 
unpredictable.
    But how would you break it down in your threats between an 
individual threat and the ones that Judge Sentelle kind of 
alluded to, that might be organizational-type threats that 
might expand their capability, especially in gangs and 
organizations like that? Do you see that number growing? Is 
that a major concern? Because that is something that seems like 
it is even more difficult to maybe get a handle on.
    Mr. Clark. Yes, Congressman, you are correct. We see a wide 
variety of threateners out there.
    Last year, in fiscal year 2006, the Marshals Service 
investigated and reviewed over 1,100 threats to the judiciary 
and U.S. attorneys, assistant U.S. attorneys and others who are 
involved in the judicial process. And all of those threats come 
in various sort of shapes and sizes.
    We have seen trends where some individuals, to use that 
term, are a little mentally disturbed or, as you say, crazy. 
But they are nonetheless making threats that we have to 
investigate.
    We also see more organized threats from gang members, often 
members of the same gang as those being prosecuted in a Federal 
court and who have the capability and the means to certainly 
pull off a threat if they wanted to. And so we take them all 
very seriously and we look at them and try to mitigate them as 
quickly as we can.
    But there is quite a range of threateners. Just as an 
example, just this last week in our Houston office, deputy 
marshals went to interview an individual who had threatened a 
Federal judge there in Houston, and in the context of 
interviewing the suspect, he came to the door with a weapon in 
hand. Fortunately, our deputies were able to retreat and were 
able to fire a shot to hit the suspect and be able to handle 
that confrontation, fortunately, very successfully without any 
harm to our deputy marshals.
    But that individual had been deemed by somebody a little 
bit mentally unstable, who had threatened, in addition to 
judges, I understand, Members of Congress. So we have an 
individual out there who says and does these things and, 
obviously, by what he did to our deputy marshals, with the 
intent to possibly carry them out.
    So there is a wide range of individuals out there.
    Mr. Forbes. The Chairman raised concerns about buildings 
and structures and what we need to do in there, but one of my 
concerns for all of you is your families as well and when you 
are outside those buildings.
    How do you track these individuals? When you get an 
individual that you think could be a potential threat, do we 
have the resources to be able to track them and make sure that 
we are monitoring what they are doing so that they are not an 
actual threat to perhaps the families?
    Mr. Clark. Yes, Congressman. We have made substantial 
improvements to how we collect, analyze and track data and 
threateners--the individuals themselves. We have enhanced our 
Office of Protective Intelligence and the data-collection means 
that we use there to track them, to make sure that those who 
gave threatened a judge in previous years, can be tracked. If 
they threaten somebody again in a subsequent year, we would 
know about that and have a case history on that individual.
    So we want to make sure we are doing a good job to keep 
records on it and to maintain that tracking system. We are 
doing that very successfully.
    We are also working with our State and local counterparts 
to see if we can better track those individuals who threaten 
State and local judges as well, so that we can share that 
information and be able to know who is threatening who out 
there.
    We found that, in some cases, those individuals who had 
threatened a State judge, for example, also might threaten a 
Federal judge. And so, we want to be able to connect the dots 
and be able to know who out there in the world is doing that.
    Mr. Forbes. Judge Bell, my time is about up, but if you 
perhaps would have someone on your staff get back to me. How 
uniformly do the State courts implement the 10 essential 
elements for courtroom safety and security that your 
organization has developed?
    And can you point to any specific outcomes to help us in 
which a threat or action was deterred as a result of this plan? 
That could be useful information if you could supply it to us.
    And, once again, thank you all for your time.
    Judge Bell. We will be happy to do that. Thank you, sir.
    Mr. Scott. I will now recognize Judge Sentelle's old friend 
from North Carolina, the gentleman from North Carolina, Mr. 
Coble.
    Mr. Coble. Mr. Chairman, you didn't need to emphasize the 
word ``old.'' [Laughter.]
    Thank you, Mr. Chairman. I appreciate the good job the two 
Virginians are doing on this Subcommittee, you and Mr. Forbes.
    It is good to have the panel with us, especially the 
alumnus from the Great Smoky Mountains, Judge Sentelle. Good to 
see you again.
    Mr. Clark, a friend of mine once told me that the success 
of being a popular speaker was to practice the ``three be's": 
be bold, be brief, be gone. [Laughter.]
    Now, I am not suggesting that Judge Sentelle and Judge Bell 
abused the 5-minute rule, but you gave new meaning to brevity 
in this place, and we embrace that very warmly. [Laughter.]
    Gentlemen, as you all know, the House approved the 
Committee of Judicial Security provisions during the last 
Congress. I understand that several key provisions from that 
bill have been omitted from the bill before us. They include 
allowing law enforcement, Federal prosecutors and judges to 
carry firearms, and increasing penalties for assaulting, 
killing or kidnapping a Federal officer.
    While I supported all of these provisions in the 109th 
Congress, I would like to hear your thoughts on why or why not 
permitting law enforcement and other courthouse officials to 
carry firearms would help secure our courthouses.
    Let me start with you, Judge Sentelle, and work to my left.
    Judge Sentelle. Congressman Coble, the Judicial Conference 
of the United States has taken a position in favor of the 
legislation allowing judges and some others to carry firearms. 
We have not retreated from that position.
    However, we hope that this bill now in front of Congress 
will not be bogged down by provisions that might be more 
controversial than what is in there now. We would rather see 
that dealt with in a separate bill, where the question could be 
examined by itself without clouding the provisions on which 
there might be more consensus.
    But, no, we have not retreated from that position. The 
Conference still stands in support of the legislation you are 
talking about.
    Mr. Coble. Thank you, sir.
    Mr. Clark?
    Mr. Clark. Congressman, it would be my position that, at 
least speaking from the Federal system, in the courthouse 
itself and in the courtroom, often there are deputy marshals 
who are armed. There are court security officers who are armed. 
And on any given day there are a few folks, at least, in every 
courtroom who are carrying firearms.
    So while we would certainly see the benefit perhaps of 
having judges and others that might be armed, we feel like 
there is an adequate armed presence now in the courtroom and 
would not necessarily think that adding to that number would 
necessarily benefit security.
    We would also say that, I guess, in terms just of the 
logistics of carrying this out, to make sure that the 
individuals would be qualified with their weaponry and able to 
use them, that we would want to work with the Judicial 
Conference to sort of think out and talk out how that could be 
done.
    With regard to raising the penalties for those who threaten 
judges or others in the law enforcement realm, I would 
certainly support that. I think any time we can deter 
effectively those who threaten the judiciary by raising the 
penalties and sending a good message that we are very serious 
about anybody who threatens a Federal judge, would be well 
worth it. So I would certainly support that.
    Mr. Coble. Judge Bell?
    Judge Bell. Yes, sir. By the way, I suppose I shouldn't say 
this, but I will. I suppose that one of the reasons that Judge 
Sentelle and I went on a little longer is that we are both from 
North Carolina. [Laughter.]
    Mr. Coble. Judge, I was not admonishing. I don't dare 
admonish judges. [Laughter.]
    Judge Bell. The position about which you speak is one that 
would have to be taken by the Government Relations Committee of 
the Conference of Chief Justices and the COSCA. I am not aware 
that we have taken a position on it nor that it was necessary 
to do so for this bill.
    Last time, I do know that we were in favor of a court 
security bill. But, as Judge Sentelle mentioned, I don't want 
any discussions about provisions where there may be some 
controversy to affect the positive action on this bill.
    Now, we can, if you would like, we can have the Government 
Relations Committee look at the issue and provide you with 
information with regard to it.
    Mr. Coble. That would not be a bad idea.
    Chairman, let me ask one more question.
    What prompted my saying this, Mr. Scott and Mr. Forbes, is 
a Federal prosecutor from my district back home told me 
recently that it is not uncommon for him to be the recipient of 
threats in an ongoing way, and that is what prompted the 
question.
    Mr. Clark, let me ask you this. Do you all in the Marshals 
Service have authority to issue administrative subpoenas?
    Mr. Clark. No, Congressman, we don't at this point in time, 
although it is something that we have in the past sought to 
obtain. And we would hopefully find in the future, with 
congressional support, the ability to obtain it.
    Mr. Coble. Well, that was my follow-up. I was going to say, 
would this authority enhance the ability of your agency to 
carry out your mission in a more fulfilling way?
    Mr. Clark. Most definitely.
    And if I can just give you a brief example how: Under the 
current context of judicial security, when we are investigating 
individuals who have threatened a prosecutor, a Federal judge, 
a local judge, whoever the case may be, time is of the essence 
to be able to quickly gather investigative information and 
particularly those who we know have the means and the 
capability to carryout a threat.
    So we would absolutely use the administrative subpoena 
authority to be able to do that. Not to mention in the other 
various missions that we have where we already have known 
criminal defendants who are wanted, who actually have an 
outstanding warrant for them, that, again, timing and being 
able to gather information quickly and effectively is of the 
essence.
    So we feel like administrative subpoena authority would be 
of great value to the Marshals Service. And we are one agency 
that, I believe, needs it and should have it and would be very 
responsible if we did have it.
    Mr. Coble. Mr. Chairman, I don't presume to tell two 
Virginians how to run their agenda, but this is something that 
may warrant the attention of the Subcommittee as we move along 
into this session.
    I yield back.
    Mr. Scott. Thank you.
    And I want to thank our witnesses for your testimony. It 
has been very helpful. This is obviously a priority of the 
Committee, and we will get working on it and hopefully we can 
get this through. The Senate has already taken action, so we 
will take action too.
    Thank you very much.
    [Whereupon, at 10:42 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

Answer to Question posed by the Honorable Robert C. ``Bobby'' Scott to 
                   the Honorable David Bryan Sentelle
    We are in the process of expanding and elaborating on each of the 
Ten Essential Elements for Courtroom Safety and Security. Each Element 
will become a written chapter in a large printed document, which we 
hope will become a compendium of best practices in each of these ten 
areas. For example, we have recently finished Essential Element #1, 
``Operational Security: Standard Operating Procedures;'' #2, ``Facility 
Security Planning: The Self Audit Survey of Court Facilities;'' #3, 
``Emergency Preparedness and Response: Continuity of Operations;'' #4 
``Disaster Recovery;'' #5 ``Threat Assessment;'' #6 ``Incident 
Reporting;'' and #7 ``Funding.'' The Conference of Chief Justices/
Conference of State Court Administrators Security and Emergency 
Preparedness Committee are the primary authors of these ten chapters. 
They are currently reviewing Elements 8, 9 and 10. The Committee is 
planning to complete this project by the end of 2007. Final 
ratification by both Conferences is expected in early 2008.
    In terms of state adoption of the Elements, we can report that the 
following states have adopted the recommendations or are in the process 
of adoption:

         1.  Operational Security: Arizona, Delaware, Michigan, New 
        York, Ohio, Pennsylvania and Wisconsin.

         2.  Facility Security Planning: California, Florida, Indiana, 
        New York, Pennsylvania and South Carolina.

         3.  Emergency Preparedness and Response: California, Florida, 
        Minnesota, Pennsylvania and Virginia

         4.  Disaster Recovery: California, Florida, Minnesota, 
        Pennsylvania and Virginia

         5.  Threat Assessment: Michigan, New Jersey and New Mexico

         6.  Incident Reporting: Hawaii, New Jersey, Ohio, 
        Pennsylvania, Rhode Island and Wisconsin

         7.  Funding: California, Missouri and Pennsylvania

         8.  Security Equipment and Costs: drafting of chapter in 
        progress

         9.  Resources and Partnerships: drafting of chapter in 
        progress

        10.  New Courthouse Design: drafting of chapter in progress

                                <F-dash>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
